Brian E. Frosu

ELizaBeTH Harris
Attorney General

Chief Deputy Attorney General

CAROLYN QUATTROCKI
Deputy Attorney General

 

State or MARYLAND

OFFICE OF THE ATTORNEY GENERAL WTS Disect Diat No.
(410) 576-6955 (410) 576-7291
jbernhardt@oag.state.md.us

Facsimice No,

November 1, 2019
By Federal Express

Scott S. Harris, Clerk

Supreme Court of the United States
One First Street, N.E.

Washington, D.C. 20543

Re: — Brian Kirk Malpasso, et al. v. William M. Palozzi, Superintendent,
Maryland Department of State Police, No. 19-423

Dear Mr. Harris:

The petition for a writ of certiorari in this case was filed on the Court’s docket on
September 26, 2019. By letter dated October 18, 2019, this office was informed that the
Court had requested a response to the petition to be filed by November 18, 2019. The
respondent requests, under Rule 30.4, a 30-day extension of time permitting the response
to be filed on or before December 18, 2019.

The extension is necessary because, although I did not handle the case in the lower
courts, I have principal responsibility for preparing the response to the petition; because
of the press of other assigned matters, including my duties as Chief of Litigation of the
Office of the Attorney General of Maryland; and to allow sufficient time both for the
brief to undergo our office’s internal review process and to coordinate with the printer.

Sincerely,

= 4

lia Doyle Bernhardt
Chief of Litigation

ce: Paul D. Clement, Esquire

 

200 Saint Paul Place # Baltimore, M 1202-2021
Main Office (410) 576-6300 # Main Off ree (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 Health Advocacy Unit/Billi omplaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 # Homebuilders Division Toll Free (877) 259-4525 Telephone for Deaf (410) 576-6372
& www.marylandattorneygeneral.gov

    

   
